Appendix

Appendix A

1a

FORMAL ORDER
STATE OF

ARKANSAS,

)

)
SUPREME

COURT

SCT.

)

BE IT REMEMBERED, THAT A SESSION OF THE SUPREME COURT
BEGUN AND HELD IN THE CITY OF LITTLE ROCK, ON MARCH I 1, 2021,
AMONGST OTHERS WERE THE FOLLOWING PROCEEDINGS. TO-WIT:

SUPREME COURT CASE NO. CR-06.29

APPELLANT

JUSTIN ANDERSON

V. APPEAL FROM MILLER COLINTY CIRCUIT COURT _ 46CR-05-354
STATE OF ARKANSAS

APPEI,t,EE

APPELLANT'S MOTION TO TAKE AS A CASE IS DENIED. BAKER, HUDSON,
AND WYNNE, JJ,, WOULD GRANT. APPELLANT'S MOTION TO RECALL THE
MANDATE IS DENIED. BAKER, HUDSON, AND WYNNE, JJ., WOULD TAKE AS A
CASE.

IN TESTIMONY, THAT THE ABOVE IS A TRUE COPY

OF

THE ORDER OF SAID SUPREME COURT. RENDERED IN
THE CASE HEREIN STATED, I, STACEYPECTOL,
CLERK OF SAID SUPREMECOURT, HEREUNTO

SET MY HAND AND AFFIX THE SEAL OF SAID
SUPREME COURT, AT MY OFFICE IN THE CITY OF
LITTLE ROCK, THIS IlTH DAY OF MARCH, 2021,

DEPUTY CLERK

ORIGINAL TO CLERK
CC: JOHN C. WILLIAMS
JACOB H. JONES, ASSISTANT ATTORNEY GENERAL
HON. BRENT HALTOM, CIRCUIT JUDGE

Appendix B

2a

FORMAL ORDER
STATE OF

ARKANSAS,

)

)
SUPREME

COTJRT

SCT.

)

BE IT REMEMBER.ED, THAT A SESSION OF THE SUPREME COURT
BEGI.IN AND HELD IN THE CITY OF LITTLE ROCK, ON MAY 6,2021, AMONGST
OTHERS WERE THE FOLLOWING PROCEEDINGS, TO.WIT:

SUPREME COURT CASE NO. CR-06-29

APPELLANT

JUSTIN ANDERSON

V. APPEAL FROM MILLER COLINTY CIRCUIT COURT

-

46CR-05-354
APPELLEE,

STATE OF ARKANSAS

APPELLANT'S MOTION TO RECONSIDER DENIAL OF MOTIONS TO RECALL
THE MANDATE AND TO TAKE AS A CASE IS DENIED. BAKER, HUDSON, AND
WYNNE, JJ., WOULD GRANT MOTION TO RECONSIDER THE, DENIAL OF THE
MOTION TO TAKE AS A CASE,.

IN TESTIMONY. THAT THE ABOVE IS A TRUE COPY OF
THE ORDER OF SAID SUPREME COURT, RENDERED IN
THE CASE HEREIN STATED" I, STACEYPECTOL.
CLERK OF SAID SUPREMECOURT, HEREUNTO

SET MY HAND AND AFFIX THE SEAL OF SAID
SUPREME COURT, AT MY OFFICE, IN THE CITY OF
LITTLE ROCK, THIS 6TH DAY OF MAY, 2021.

BY:
DEPUTY CLERK

ORIGINAL TO CLERK
CC: JOHN C. WILLIAMS
JACOB H. JONES, ASSISTANT ATTORNEY GENERAL
HON. BRENT HALTOM, CIRCUIT JUDGE

Appendix C

3a

ELECTRONICALLY FILED
Arkansas Supreme Court
Stacey Pectol, Clerk of the Courts

2020-Dec-03 10:02:14
CR-06-29
31 Pages

IN THE ARKANSAS SUPREME COURT

JUSTIN ANDERSON
v.

Movant/Appellant
No. CR-06-29

STATE OF ARKANSAS

Respondent/Appellee

MOTION TO RECALL THE MANDATE
Justin Anderson asks the Court to recall the mandate and vacate his death
sentence. In its independent review of this case, the Court missed several claims of
well-preserved, prejudicial error concerning the jury’s use of impermissible
evidence to sentence Anderson to death. The federal courts declined to hear these
claims because they had not been raised in state court. In this most serious of cases,
the Court should exercise its power to recall its mandate and order resentencing.
Under Arkansas law governing capital sentencing, the State may present
evidence going to punishment, including victim-impact evidence, and the jury
must then determine whether at least one of ten specific aggravating circumstances
outweighs mitigation and justifies death. Ark. Code Ann. §§ 5-4-602, -603, -604.
The jury’s discretion to impose death is thus narrowly circumscribed. Here, despite
objections, the circuit court committed errors that led it to exceed constitutional
and statutory limitations on evidence in capital sentencing. It did so in two ways.

1

Appendix C

4a

First, the circuit court allowed the prosecutor to introduce extensive “victim
impact” evidence related to a separate, non-capital crime. This testimony, though
powerful, was irrelevant to whether Anderson should be sentenced to death,
because it had nothing to do with “the human cost of the crime of which the
defendant stands convicted.” Payne v. Tennessee, 501 U.S. 808, 827 (1991)
(emphasis supplied). Long before Anderson’s trial, this Court had explained that it
“cannot sanction evidence of another crime as legitimate victim-impact evidence.”
Walls v. State, 336 Ark. 490, 500, 986 S.W.2d 397, 402 (1999).
Second, the circuit court erroneously instructed the jury that it could weigh as
aggravation any evidence that had been presented at the trial. This instruction
allowed the jury to weigh matters in aggravation that went well beyond the scope
of the narrow aggravating factors stated in Ark. Code Ann. § 5-4-604.
The Court should have corrected these prejudicial errors in its automatic review
of Anderson’s death sentence and should recall the mandate to do so now.
LEGAL STANDARD
“[T]his court has the inherent authority to recall its mandate in extraordinary
circumstances.” Rayford v. State, 2020 Ark. 299, at 4. A motion to recall the
mandate is typically “applicable to redress errors that this court made or
overlooked while reviewing a case in which the death penalty was imposed.” Id. at
5. To determine whether the motion is warranted, the Court considers three factors:
2

Appendix C

5a

(1) the presence of a defect in the appellate process; (2) a dismissal of proceedings
in federal court because of unexhausted state-court claims; and (3) an appeal in a
death case that required heightened scrutiny. Wertz v. State, 2016 Ark. 249, at 5,
493 S.W.3d 772, 775. The Court has held that “these factors are not necessarily to
be strictly applied but rather that they serve as a guide in determining whether to
recall a mandate.” Id.
A “defect in the appellate process” is defined as “an error alleged to have been
made by this court in its appellate review of a death-penalty case,” specifically in
its automatic review for prejudicial error under Sup. Ct. R. 4-3 and R. App. Pro. –
Crim. 10. Id. at 7, 493 S.W.3d at 776. As established below, the prejudicial errors
upon which Anderson relies were preserved—repeatedly—at trial.
BACKGROUND AND PROCEDURAL HISTORY
A. Conviction and appeal from first death sentence.
Anderson, then nineteen years old, shot and killed Clara Creech as she was
gardening in her yard on the morning of October 12, 2000. Six days earlier he had
shot Roger Solvey, a truck driver, and injured him severely. Anderson’s guilt for
these crimes is not in dispute. In 2001, a jury found him guilty for the attempted
capital murder of Solvey and sentenced him to fifty years’ imprisonment. See CR02-582, 2003 WL 549121 (Ark. App. Feb. 26, 2003). In 2002, a separate jury
found him guilty for the capital murder of Creech and sentenced him to death. The
3

Appendix C

6a

theory of capital murder was that he caused Creech’s death with premeditated and
deliberated purpose. See Ark. Code Ann. § 5-10-101(4); R. 1 (information).1 The
Court upheld Anderson’s capital-murder conviction on appeal. Anderson v. State
(Anderson I), 357 Ark. 180, 163 S.W.3d 333 (2004). This motion does not
challenge Anderson’s convictions.
Anderson’s capital sentence, on the other hand, has been consistently marred by
problems that undermine the “need for reliability in the determination that death is
the appropriate punishment in a specific case.” Woodson v. North Carolina, 428
U.S. 280, 305 (1976). This Court corrected one such problem in Anderson I. There,
though the defense introduced extensive proof concerning Anderson’s abusive
upbringing, the jury filled out a portion of the verdict form stating that no
mitigating evidence had been presented. The Court concluded that resentencing
was required because the “the jury eliminated from its consideration all evidence
presented of mitigating circumstances and sentenced Anderson to death solely
based on the aggravating circumstance.” Anderson I, 357 Ark. at 224, 163 S.W.3d
at 360. Unfortunately, upon remand the circuit court committed additional errors
that, while preserved at trial, eluded Anderson’s appellate counsel and escaped this
Court’s attention. The procedural history relevant to these errors is provided below.

1

Citations to the record in No. 06-29 are denoted “R.”
4

Appendix C

B.

7a

Resentencing and appeal.
At resentencing the State alleged a single aggravating circumstance: another

violent felony (the Solvey attempt). See R. 919 (amended information). This is the
third aggravating factor in the Arkansas capital-murder statute: that the defendant
“previously committed another felony, an element of which was the use or threat
of violence to another person or the creation of a substantial risk of death or serious
physical injury to another person.” Ark. Code Ann. § 5-4-604(3).
Because a new jury was empaneled for resentencing, the prosecutor put on
extensive evidence concerning the facts of the capital offense and the attempted
murder. Anderson does not contest the use of evidence connected to his
commission of the prior violent felony—for example, photographs of the Solvey
crime scene and Roger Solvey’s own testimony about how the crime was
committed. Nor does he take issue with victim-impact testimony from Clara
Creech’s family, which is (and was) clearly permissible under federal and
Arkansas law. He does, however, challenge Mr. Solvey’s testimony concerning
how the attempted capital murder affected him personally. He also challenges the
testimony of Mr. Solvey’s wife, Nancy Solvey, as its only function was to inform
the jury of victim impact from the non-capital crime.
Before the resentencing trial, Anderson submitted several motions objecting to
victim-impact evidence. See R. 834–64. Most relevant here, he “object[ed] to any
5

Appendix C

8a

testimony from either Roger or Nancy Solvey regarding how they have been
impacted by Defendant’s actions.” R. 1080. He elaborated:
Payne specifically limits victim impact testimony to the impact of the
victim’s death to the victim’s family and those close to the victim who
were profoundly affected by the victim’s death. Any testimony from Roger
or Nancy Solvey regarding how they have been impacted by Defendant’s
actions will be irrelevant under A.R.E. 402, will have absolutely no
probative value in this trial, and will violate Payne v. Tennessee, the 8th
and 14th amendments to the United States Constitution, and the
corresponding Arkansas constitutional provisions.
R. 1080–81. The prosecutor responded that the Solveys’ testimony was not victimimpact evidence but rather was linked to the aggravating circumstance of
Anderson’s prior violent felony because it would cover “strictly the things that
resulted and flowed from this injury.” R. 3243–45. The circuit court overruled the
objection and permitted the testimony under Ward v. State. R. 3246–47. Though
the court provided no citation, it presumably meant the Ward v. State reported at
338 Ark. 619, 1 S.W.3d 1 (1999).
Roger Solvey began his testimony by focusing on the facts of the prior offense:
how Anderson shot him twice, once in the arm and once in the chest area, and the
immediate circumstances of that incident. R. 3250–3253. However, the prosecutor
soon went beyond the facts of the assault into its effect on Mr. Solvey’s life more
generally. The prosecutor established that Mr. Solvey had required thirty-five
surgeries, that his arm was nearly amputated, that he suffered from short-term
memory problems, and that he had been unable to drive a truck since the attack. R.
6

Appendix C

9a

3253–3259. Mr. Solvey also discussed his financial troubles, explaining that he
had to get rid of his truck because he could no longer pay for it. R. 3259.
If Mr. Solvey’s testimony at least had elements of establishing the facts of a
prior felony, Nancy Solvey’s testimony was devoted purely to illustrating the
impact of the assault on her and her husband’s lives. Mrs. Solvey began by
describing her journey from Ohio to Texarkana to care for her husband, crying
throughout. See R. 3266–70. Anderson’s counsel once again objected to testimony
about the “after effects” of the attempted capital murder and “victim impact of
another crime.” R. 3271. The circuit court allowed the testimony as “relevant to the
extent of the injuries, and the extent of the sequela of the violent act.” R. 3273. It
later rejected a proposed jury instruction stating that “[e]vidence of victim impact
testimony from Roger Solvey or Nancy Solvey is not to be considered by you for
any reason relating to Justin Anderson’s punishment.” R. 3907.
Mrs. Solvey continued to offer extensive testimony covering medical, financial,
and emotional troubles that she and Mr. Solvey had suffered because of the assault:
PROSECUTOR: We were talking a little bit about when you left here and got
back to Ohio. There still was some stuff to deal with with Roger
rehabbing himself and trying, at least, to have some kind of life
after he couldn’t be a truck driver. Correct?
N. SOLVEY:

That’s correct.

PROSECUTOR: All right. Has he been able to be employed at all since that
time?
7

Appendix C

N. SOLVEY:

10a

No.

PROSECUTOR: And is he currently disabled?
N. SOLVEY:

Yes.

PROSECUTOR: All right. And what is his income from Social Security
Disability?
N. SOLVEY:

$900.00 a month.

PROSECUTOR: All right. Now, your husband testified that he lost the truck
because of this, obviously, because he couldn’t work?
N. SOLVEY:

That’s correct.

PROSECUTOR: All right. And what about the medical bills? Did he have some
insurance at that time, being a self-employed truck driver? Or
what was his status?
N. SOLVEY:

No, he didn’t. We didn’t have insurance at that time. I just
started working back at a hospital. I’m a registered nurse.

PROSECUTOR: All right.
N. SOLVEY:

As I was only part time, and he was driving, and we didn’t have
insurance.

PROSECUTOR: All right. So the burden of the medical came on you? Did he
have some worker’s comp held out?
N. SOLVEY:

No. Nothing.

PROSECUTOR: All right.
N. SOLVEY:

Nothing.

PROSECUTOR: He was self-employed, so.
N. SOLVEY:

Right.
8

Appendix C

11a

PROSECUTOR: All right. All right. And did that cause a financial burden on
your family?
N. SOLVEY:

Yes, it has. We owe Wadley Hospital $75,000.00 (cries) for his
stay down here, and since I started working, just to keep our
home and save everything, uh, we still owe another $20,000.00
in hospital bills in Ohio.

PROSECUTOR: Okay. And since your husband left Texarkana, how many
surgeries has he had since he left here?
N. SOLVEY:

Thirty-eight.

PROSECUTOR: All right. And have all of those been on the elbow, or have
some of them been elsewhere?
N. SOLVEY:

All of them was on the elbow, and one was on his chest to
remove the bullet.

PROSECUTOR: All right. And the bullet finally moved to a location where they
felt they could safely get it?
N. SOLVEY:

Yes.

PROSECUTOR: And uh, the rest has been on the elbow trying to . . .
N. SOLVEY:

. . . Save his arm.

PROSECUTOR: Now, since this incident occurred, has Roger had some
problems, I mean, since this incident occurred, has Roger had
some problems with his memory?
N. SOLVEY:

He can’t remember. He has no short term memory at all.

PROSECUTOR: All right. And was he having that problem prior to this
incident?
N. SOLVEY:

No, he was not.
9

Appendix C

12a

PROSECUTOR: Does he recall this incident in your presence on any occasions?
N. SOLVEY:

He has back flashes all the time. He’s up at night sometimes,
thinking someone is coming to kill him again. (Cries).

PROSECUTOR: All right. And is he emotional then?
N. SOLVEY:

Oh, yes. Yes.

PROSECUTOR: Does he need any special care at home now, or is he able to
take care of himself, like you know, as far as bathing and that
sort of thing? Has he learned how to do all of that?
N. SOLVEY:

He’s learned how to do that. I had to help him. My daughter has
also had to help him. This happened when she was only twelve
and so she’s helped him, too. Last year we had a severe
infection. They almost had to take his whole arm off, so we had
to teach her how to give him IVs while I was working so that
we’d save his life, and keep his arm.

PROSECUTOR: But this condition is ongoing, and requires some care?
N. SOLVEY:

Yes.

PROSECUTOR: From day to day?
N. SOLVEY:

Yes. They said if he gets those infection they’ll probably have
to remove his arm.

R. 3273–76.
In closing, the prosecutor encouraged the jury to count the Solveys’ suffering as
an aggravating circumstance and to weigh it against mitigation:
And I submit to you that the aggravating circumstances that we’ve
presented in this case to you is a, it’s not like somebody pulling a knife
on somebody and threatening them. This is a real, life changing,
aggravating circumstance. It’s one that you saw Mr. Solvey here, who
lost his employment, almost lost his arm. Y’all saw how much of his
10

Appendix C

13a

elbow is gone and how his arm is shorter. Y’all got to see him in court.
Thirty-five surgeries, in debt with hospital bills, has to stay at home and
can’t work. His wife went to work. Those are life-changing,
aggravating circumstances. No doubt about it, and that’s something
when you weigh that aggravating circumstance in this case, it’s a big
circumstance to weigh against anything, what happened to Mr. Solvey,
and that was at the hands of Mr. Anderson.
R. 3993–94.
During deliberations, the jurors requested “a clarification on form three, item B,
where we need a clarification for the aggravating circumstances. Which do we
consider, the Roger Solvey circumstance, the Clara Creech circumstances, or both
of them?” R. 4073. After a lengthy discussion, during which defense counsel
argued that the jury should only weigh the prior violent felony and the State argued
that all the evidence was fair game, the court agreed with the State’s position and
instructed: “[Y]ou may consider all of the evidence and give it whatever weight
that you believe appropriate in answering form three B, and following.” R. 4097.
The jury was out for six and a half hours. See R. 4031 (jury retires at 11:47 am);
R. 4102 (verdict at 6:28 pm). It unanimously found the aggravating factor and
thirty of the thirty-five mitigating circumstances counsel proposed. R. 1091–1104.
It decided that aggravation outweighed mitigation and justified death. R. 1105.
Anderson’s appellate counsel briefed a number of challenges to the state victimimpact statute and the role of victim-impact evidence in the weighing of
aggravation and mitigation. In affirming the death sentence, this Court rejected
11

Appendix C

14a

those challenges. See Anderson v. State (Anderson II), 367 Ark. 536, 543–46, 242
S.W.3d 229, 235–36 (2006), cert. denied, 551 U.S. 1133 (2007). Appellate counsel
did not raise the issue of impermissible other-crimes “victim impact” evidence
through the Solveys’ testimony.
Appellate counsel did argue that “the trial court erred by instructing the jury to
consider all evidence presented as aggravating circumstances to be weighed
against the mitigators in determining Appellant’s eligibility for the death penalty.”
Appellant’s Br. at Arg. 4. The brief continued that “the trial court erroneously
encouraged the jury to sentence Appellant to death based upon an invalid
aggravator.” Id. at Arg. 25. Anderson’s reply brief likewise asked the Court to
“declare that in this case, the trial court erred by giving an erroneous supplemental
instruction to the jury.” Reply Br. at Arg. 7. The Court’s Anderson II opinion does
not address this argument.
C. Postconviction proceedings.
Jeff Harrelson was appointed to represent Anderson in Rule 37 proceedings.
Upon denial of relief in the circuit court, Harrelson twice filed appellate briefing
that this Court rejected as inadequate. After the second rejection, the Court
removed Harrelson from the appeal and appointed Jeff Rosenzweig. See Anderson
v. State, 2010 Ark. 375. Rosenzweig filed two motions to remand, one for the
circuit court to consider a claim of intellectual disability and another to allege
12

Appendix C

15a

Harrelson’s ineffectiveness in the Rule 37 proceeding. The Court denied those
motions and affirmed the circuit court’s ruling. See Anderson v. State, 2011 Ark.
488, at 2–3, 14, 385 S.W.3d 783, 786, 792.
Anderson then filed a federal habeas corpus petition in the United States
District Court for the Eastern District of Arkansas. Among other challenges, the
federal petition argued that the Solveys’ victim-impact testimony and the court’s
supplemental jury instruction violated his rights. The federal district court held
these claims to be procedurally defaulted for failure to present them to this Court.
See Anderson v. Kelley, No. 12-cv-279, 2017 WL 1160583, at *12, 22–23 (E.D.
Ark. Mar. 28, 2017). The district court held an evidentiary hearing on a question
not at issue here: whether resentencing counsel was ineffective for failing to
uncover Anderson’s brain damage arising from his mother’s binge drinking during
her pregnancy with him. Anderson presented extensive evidence of his brain
damage—evidence the State did not contest. However, the district court found that
resentencing counsel’s failure to uncover it did not rise to the level of
constitutional error. Id. at *4–8.
By split decision, the Eighth Circuit affirmed the district court’s brain-damage
ruling. Anderson v. Kelley, 938 F.3d 949 (8th Cir. 2019). It also considered and
rejected arguments concerning the supplemental instruction. The court found that

13

Appendix C

16a

the claim was procedurally defaulted and that the violation of state statute alone
does not create a federal constitutional violation. Id. at 961–62.
Anderson filed a certiorari petition asking the United States Supreme Court to
consider the brain-damage issue. The Court denied the petition on October 5, 2020.
THIS COURT OVERLOOKED CLAIMS OF PREJUDICIAL ERROR
In its automatic review of Anderson’s death sentence, the Court overlooked two
serious errors: the prosecutor’s use of victim-impact evidence arising from a prior
offense and the circuit court’s instruction that the jury could weigh evidence in
aggravation that was unrelated to the charged aggravating factor. The errors
prejudiced Anderson by giving the jury weighty—but legally impermissible—
reasons to choose death. Trial counsel preserved these claims of prejudicial error,
but they evaded the Court’s automatic review. The Court should now recall the
mandate and remand for a resentencing at which the evidence that factors into the
sentencing decision is kept within legal boundaries.
I. OTHER-CRIMES “VICTIM IMPACT” EVIDENCE
May the State show that the devastating effects of a defendant’s previous
criminal activity justify a harsh sentence for a later offense? The resounding
answer from the courts that have decided this issue—including this Court—is
“no.” Admission of this evidence was irrelevant, unduly prejudicial, and in
violation of Anderson’s rights under the Eighth Amendment, Fourteenth
14

Appendix C

17a

Amendment, and corresponding provisions of the Arkansas Constitution.
Moreover, the error was not harmless under the circumstances here.
A. Admission of other-crimes “victim impact” violated Anderson’s rights.
1. Eighth Amendment/Ark. Const. art. 2, § 9
When the State uses victim-impact evidence to seek death, Eighth Amendment
concerns arise. Analysis of this issue begins with Payne v. Tennessee, in which the
Supreme Court partially overruled two precedents—Booth v. Maryland, 482 U.S.
496 (1987), and South Carolina v. Gathers, 490 U.S. 805 (1989)—forbidding the
introduction of any victim-impact evidence under the Eighth Amendment.
In Payne, the Court did not give states carte blanche to offer victim-impact
statements. Rather, the Court cabined its holding to victim impact related to the
homicide of conviction: “A State may legitimately conclude that evidence about
the victim and about the impact of the murder on the victim’s family is relevant to
the jury’s decision as to whether or not the death penalty should be imposed.”
Payne, 501 U.S. at 827 (emphasis added). Justice O’Connor’s concurrence
included the same limitation: “The Eighth Amendment does not prohibit a State
from choosing to admit evidence concerning a murder victim’s personal
characteristics or the impact of the crime on the victim’s family and community.”
Id. at 832–33 (O’Connor, J., concurring) (emphasis added). Cf. Bosse v. Oklahoma,

15

Appendix C

18a

137 S. Ct. 1 (2016) (holding that the Booth and Gathers continue to apply except
insofar as Payne expressly limited them).
After Payne, Arkansas passed Act 1089 of 1993, which allowed victim-impact
evidence at capital sentencing. See Ark. Code Ann. § 5-4-602(4). Section 2 of the
Act specifically ties the statutory language to the ruling in Payne: “It is the express
intention of this act to permit the prosecution to introduce victim impact evidence
as permitted by the United States Supreme Court in Payne v. Tennessee.” See Noel
v. State, 331 Ark. 79, 90–91, 960 S.W.2d 439, 445 (1998). By incorporating Payne
into the statute, the legislature also incorporated its limitations—limitations that
preclude the State from using a prior victim’s testimony about the lingering effects
of the defendant’s non-capital crime to obtain a death sentence. Allowing the State
to use victim impact from an entirely separate crime to support a death sentence
undermines the reliability of the capital proceeding, in violation of the Eighth
Amendment and Article 2, Section 9 of the Arkansas Constitution.
2. Irrelevant, prejudicial testimony.
Other-crimes victim impact presents additional problems under the Arkansas
Rules of Evidence. It is not relevant, and even if relevant the danger of unfair
prejudice from its admission outweighed its probative value here.
To be admitted, evidence must be relevant, meaning it must have a “tendency to
make the existence of any fact that is of consequence to the determination of the
16

Appendix C

19a

action more probable or less probable than it would be without the evidence.” Ark.
R. Evid. 401, 402. Victim-impact evidence from the victim’s family is relevant
after Payne. Other-crimes victim-impact evidence is not, because it has nothing to
do with the defendant’s blameworthiness for the crime of conviction.
This Court has not hesitated to find reversible error where a circuit court has
admitted other-crimes victim impact. For example, in Walls v. State, 336 Ark. 490,
986 S.W.2d 397 (1999), the defendant pleaded guilty to several rapes. The State
introduced additional testimony that the defendant had been complicit in an
uncharged murder, including “background information about the [witness’s]
murdered . . . family members.” Id. at 497–98, 986 S.W.2d at 401. The Court
explained that it “cannot sanction evidence of another crime as legitimate victimimpact evidence. Clearly, it is not relevant.” Id. at 500, 986 S.W.2d at 402.
The Court has likewise constrained other sorts of victim-impact evidence that
exceeded the bounds of “the effects of the crime on the victim, the circumstances
surrounding the crime, and the manner in which the crime was perpetrated.” Ark.
Code Ann. § 16-90-1112(a)(1). In Kitchell v. State, 2020 Ark. 102, 594 S.W.3d
848, the State introduced evidence at the defendant’s Miller resentencing that he
had previously been sentenced to life without parole, and the victim’s family
testified that participating in the resentencing had taken an emotional toll. The
Court reversed, finding that “[e]vidence regarding the effect on the victim’s family
17

Appendix C

20a

from a previous sentence that has later been overturned” is not relevant victim
impact. Id. at 8, 594 S.W.3d at 853.
Here, the prosecutor attempted to establish the link absent elsewhere by arguing
that the other-crimes victim impact went to proof of the aggravating factor: that the
defendant “previously committed another felony, an element of which was the use
or threat of violence to another person or the creation of a substantial risk of death
or serious physical injury to another person.” Ark. Code Ann. § 5-4-604(3).
Contrary to the prosecutor’s argument, the effect of a prior felony on the victim
and his family was not relevant to whether Anderson in fact committed that felony.
Mr. Solvey’s testimony about the facts of the prior crime went to that issue.
Testimony about Mr. Solvey’s medical bills, loss of income, and trouble sleeping
did not. Likewise, insofar as it departed from an account of the crime itself, the
testimony did not concern whether the attempted murder contained as an “element”
a “threat of violence” or “the creation of a substantial risk of death or physical
injury.” The testimony informed the jury, among other things, that the Solveys
lacked insurance at the time of the offense, that they had sustained almost
$100,000 in medical bills, that Mr. Solvey could no longer work, that he took in
only $900.00 per month from Social Security, that his wife had to reenter the
workforce, and that flashbacks prevented him from sleeping at night. This evidence
was extraordinarily powerful. But, unlike evidence tied to the offense itself, it did
18

Appendix C

21a

not go to show that attempted murder involves violence or risk of injury as an
element.
Even if the evidence were relevant to proof of the aggravating factor, it should
have been excluded under Arkansas Rule of Evidence 403 because its “probative
value is substantially outweighed by the danger of unfair prejudice, confusion of
the issues, or misleading the jury.” The testimony at issue contributed little, if at
all, to proof of a prior violent felony. The State amply proved the prior violent
felony with the judgment and commitment order for the attempted murder and with
Mr. Solvey’s account of the incident. Additional evidence about Mr. Solvey’s
financial and emotional troubles was unnecessary for the State to prove the
aggravating circumstance.
The testimony was wrenching. It would be difficult for anyone to meet it
without sympathy for the Solveys. But Anderson had already been sentenced for
his crime against them. The Solveys testified at that trial and a separate jury
accounted for their pain. This case, on the other hand, was about whether Anderson
should be sentenced to death for a capital murder. The State was entitled to prove
that Anderson’s criminal record aggravated the offense and made death a necessary
punishment, but it veered into prejudice and jury confusion here by urging a
sentence of death on the basis of gratuitous emotion. Cf. Diemer v. State, 365 Ark.
61, 225 S.W.3d 348 (2006) (prejudice outweighed probative value where state
19

Appendix C

22a

introduced criminal history despite defendant’s offer to stipulate to that fact);
Johnson v. State, 337 Ark. 477, 989 S.W.2d 525 (1999) (same where state
introduced fact of prior incarceration to show origins of conspiracy); Williams v.
State, 2016 Ark. App. 507, 505 S.W.3d 234 (2016) (same where state introduced
facts of close-in-time assault to show offense timeline); Lee v. State, 266 Ark. 870,
587 S.W.2d 78 (Ark. Ct. App. 1979) (same where state introduced evidence of
manslaughter victim’s “dreadful condition and the treatment administered during
the four days that she lived after being admitted to the hospital”).
3. Violation of due process.
Finally, admission of the victim-impact evidence violated the due-process
clause of the federal and Arkansas constitutions. As the Court held in Payne, even
testimony from the victim of the crime itself may be “so unduly prejudicial that it
renders the trial fundamentally unfair.” Payne, 501 U.S. at 825. That is the case
here, much for the same reasons that the prejudicial impact of the evidence
substantially outweighed its probative value. The testimony did not consist of stray
remarks about the impact that Anderson’s prior offense had on the Solveys. It
consisted of a sustained effort, guided by the prosecutor, to arouse the jury’s
sympathy for the Solveys’ physical, emotional, and financial condition. It rendered
the sentencing fundamentally unfair by encouraging the jury to mete out the
ultimate sentence not because Anderson had a record of violent felony conduct, but
20

Appendix C

23a

because he had caused lingering pain to victims of a prior felony. The harm caused
to the victims of a different offense was not a part of the underlying aggravating
factor and was not relevant to the crime of conviction. It was fundamentally unfair
for the State to encourage a death sentence by evoking this emotional testimony.
B.

The circuit court erred in allowing the other-crimes victim impact.
At trial, the circuit court cited two reasons for overruling Anderson’s objections

to the Solveys’ testimony. Neither withstands scrutiny.
First, the circuit court questioned whether the Solveys’ testimony should be
considered victim-impact evidence at all. See R. 3273 (stating the testimony is
“improperly characterized as victim impact” because it goes to the “sequela of the
violent act”). To the contrary, testimony about a person’s medical history, financial
difficulties, and emotional problems falls squarely under the rubric of victimimpact as the Supreme Court and the Arkansas General Assembly has defined it.
The Supreme Court has explained that victim impact is “simply another form or
method of informing the sentencing authority about the specific harm caused by
the crime in question.” Payne, 501 U.S. at 825. State statute permits a “victim
impact statement” concerning “the effects of the crime on the victim.” Ark. Code
Ann. § 16-90-1112(a)(1). It blinks reality to say that the Solveys’ testimony about
how Anderson’s crime changed their lives is not victim-impact evidence.

21

Appendix C

24a

Second, the circuit court found the evidence permissible under Ward v. State,
338 Ark. 619, 1 S.W.3d 1 (1999). R. 3246–47. But that case does not concern the
admission of other-crimes victim impact, so it does not speak here. In Ward, the
State established a prior murder through the testimony of a detective who
“described the crime scene, the victim’s injuries and cause of death, and the
circumstances connecting Ward to the homicide.” Id. at 625, 1 S.W.3d at 4. The
Court held that the State was entitled to present the testimony, even though Ward
offered to stipulate to the crime, and that the testimony was relevant to Ward’s
commission of the prior offense. Framing the question as “what evidence the State
may present to prove the defendant’s prior commission of a violent felony,” the
Court concluded that the State may “present evidence showing circumstances that
explain the act, show a motive for killing, or illustrate the defendant’s state of
mind.” Id. at 628, 1 S.W.3d at 6.
Testimony concerning Mr. Solvey’s corrective surgeries, medical bills, memory
loss, and psychological troubles had nothing to do with the circumstances of the
attempted murder or Anderson’s motive. It went purely to create sympathy for the
victim of a crime for which Anderson had already been sentenced to fifty years in
prison. As established above, such testimony violated Anderson’s rights.

22

Appendix C

25a

C. Other courts widely view this sort of testimony as impermissible.
The admissibility of other-crimes victim impact is not a novel issue. As already
discussed, the Court considered and rejected it in Walls, long before Anderson’s
resentencing. Walls agrees with almost every court to have considered whether
victim impact from one crime may support a penalty for a separate crime.2
In People v. Hope, 702 N.E.2d 1282, 1286–89 (Ill. 1998), the state alleged the
defendant’s prior murder as an aggravating circumstance. It called the prior murder
victim’s widow and a surviving witness to “testify as to the effects of the [prior]
shooting on them and their families.” Id. at 1286. The Illinois Supreme Court
rejected the evidence. It held that “Payne clearly contemplates that victim impact
evidence will come only from a survivor of the murder for which the defendant is
presently on trial, not from survivors of offenses collateral to the crime for which
defendant is being tried.” Id. at 1288. The Court also concluded that the victimimpact evidence was irrelevant even if the state charged the prior offense as an
aggravating factor: “While the details of prior crimes are considered relevant
aggravation because they illuminate the character and record of a capital defendant,

2

Only California and Florida allow other-crimes victim impact. People v. Duong,

10 Cal. 5th 36, 72–73 (2020); Belcher v. State, 961 So.2d 239, 257 (Fla. 2007).
23

Appendix C

26a

the unforeseen effects of those prior crimes on their victims are of no such
assistance.” Id. (citations omitted).
In Cantu v. State, 939 S.W.2d 627, 635–37 (Tex. Ct. Crim. App. 1997), the
defendant participated in a double rape-murder but was charged and convicted for
the death of only one victim. The state called the mother of the second victim to
testify about her. The appellate court held that the testimony should not have been
admitted because “evidence as to her good character, activities she enjoyed and the
impact of her on her family is not relevant as appellant was not on trial for her
murder and such evidence serves no purpose other than to inflame the jury.” Id. at
637. The second victim was “not the ‘victim’ for whose death appellant has been
indicted and tried, and Payne does not contemplate admission of such evidence as
permissible under the Eighth Amendment.” Id.3
St. Clair v. Commonwealth, 451 S.W.3d 597, 624–29 (Ky. 2014), arose from
the defendant’s resentencing for his sixth murder. The state presented testimony
from the fifth murder victim’s widow about the victim’s work as a youth pastor.
The Kentucky Supreme Court found error because “[t]estimony from a victim of a
crime for which the defendant is not being tried is not relevant to sentencing for the

3

Cantu, as well as some other cases discussed below, found harmless error under

the specific circumstances. As explained later, the error is not harmless here.
24

Appendix C

27a

tried crime.” Id. at 626. Reasoning that the other-crimes victim impact was neither
a “circumstance of the crime” nor “part of the character of the accused,” the court
concluded that the testimony “affected [the defendant’s] Eighth Amendment rights
and would not be permissible under Payne v. Tennessee.” Id. at 629 & n.19.
In People v. Dunlap, 975 P.2d 723, 744–46 (Colo. 1999), during sentencing for
the defendant’s quadruple murder, the state introduced evidence concerning the
effect of the defendant’s prior robberies on their victims. The court explained that
“evidence consisting of facts concerning a defendant’s prior convictions is also
relevant in the penalty phase, because it addresses the defendant’s character as well
as the existence of the statutory aggravators and mitigators related to the
defendant’s prior record.” Id. at 745. By contrast, “[e]vidence regarding the impact
of a capital defendant’s prior crimes on the victims of those crimes . . . is not
admissible because it is not relevant to the actual harm caused by the defendant as
a result of the homicide for which he is being sentenced.” Id. (citing Payne, 501
U.S. at 821). Such evidence is not “sufficiently tied to the jury’s inquiry
concerning the character, background, and history of the defendant, or to any of the
aggravating or mitigating factors.” Id.
Other states have likewise held that “evidence of the impact to victims of prior
crimes alleged as aggravating circumstances is not relevant to the sentencing
decision in a first-degree murder case, and therefore such evidence is inadmissible
25

Appendix C

28a

during the penalty phase.” Kaczmarek v. State, 91 P.3d 16, 34–35 (Nev. 2004); see
also Andrews v. Commonwealth, 699 S.E.2d 237, 270–72 (Va. 2010); State v.
Jacobs, 880 So.2d 1 (La. 2004); State v. Bigbee, 885 S.W.2d 797, 812 (Tenn.
1994). In short, the inadmissibility of the Solveys’ victim-impact evidence finds
strong grounding in Walls and in the opinions of many other courts.
D. The “victim impact” error was prejudicial.
It is difficult to show that a capital-sentencing error is harmless. “[T]o hold as
harmless an error occurring in the penalty phase of a capital murder trial . . . , we
must be able to reach the conclusion that the error was harmless beyond a
reasonable doubt.” Miller v. State, 2010 Ark. 1, at 36, 362 S.W.3d 264, 286. In
Miller, for example, two of the victims’ family members testified, in violation of
the Eighth Amendment, that the defendant should receive the death penalty. Id.
The Court held that the error is not harmless, even in the presence of “several
aggravating factors,” because “there is no way for us to determine the effect of the
victim-impact evidence on the jury’s decision to impose the death sentence.” Id. at
36–37, 362 S.W.3d at 286; cf. Kitchell, 2020 Ark. 102, at 11, 594 S.W.3d at 854.
Here, the harmfulness of the error is even clearer than in Miller. There, two
witnesses gave fairly brief statements asking the jury for death. 2010 Ark. 1, at 32–
33, 362 S.W.3d at 284. Here, two witnesses gave extensive extralegal victimimpact testimony and the prosecution encouraged the jury to consider it. Moreover,
26

Appendix C

29a

Anderson’s was a very close sentencing case. Aggravation was limited to the prior
violent felony. Counsel presented, and the jury found, extensive mitigating
evidence concerning the appalling physical abuse and neglect Anderson was
subjected to as a youth before he committed the offense at age nineteen. The length
of the jury’s deliberations shows that it was having some difficulty coming to a
resolution on sentence. And its question about whether it could consider the
“Roger Solvey circumstance” indicates that it considered the Solveys’ testimony
significant. In these circumstances the use of protracted, emotional testimony from
prior crime victims cannot be said to be harmless.
II. INSTRUCTIONAL ERROR
The circuit court was wrong to instruct the jury that it could “consider all of the
evidence and give it whatever weight that you believe appropriate in answering
form three B, and following.” R. 4097. This instruction permitted the jury to weigh
evidence in aggravation that Arkansas law precludes it from weighing.
To reach a death verdict, the jury must complete a three-step process under Ark.
Code Ann. § 5-4-603(a). First, it must find at least one aggravating circumstance
beyond a reasonable doubt. Importantly, under Arkansas law, aggravating
circumstances are limited to ten specific scenarios. See Ark. Code Ann. § 5-4-604.
Second, it must determine whether, beyond a reasonable doubt, the aggravating
circumstances it found outweigh the mitigating circumstances it found. Third and
27

Appendix C

30a

finally, it must find that aggravating circumstances justify a death sentence beyond
a reasonable doubt. In Anderson’s case, these requirements were presented to the
jury on Form 3. R. 1105. Form 3B asked the jury to report the results of its
weighing aggravation against mitigation. Form 3C asked the jury to report whether
the aggravation justified death notwithstanding its weight against mitigation.
The jury exhibited confusion about its task when it asked whether the
aggravation to be weighed against mitigation consisted of the “Roger Solvey
circumstance, the Clara Creech circumstances, or both of them?” R. 4073. Under
Arkansas law, the answer to this question is clear: a jury may only weigh an
aggravating circumstance that is listed in Ark. Code Ann. § 5-4-604 and that the
State proves beyond a reasonable doubt. Here, there was one aggravating
circumstance that fit that description: a prior violent felony. However, the circuit
court’s instruction allowed the jury to weigh any and all of the evidence presented.
Thus, the jury was allowed to count as aggravating any aspect of the crime or
Anderson’s background introduced at the resentencing, including such patently
irrelevant material as Anderson’s juvenile record. See R. 3571–72, 3759.
Some states have sentencing schemes that allow broad, unguided discretion to
assign aggravating weight to any of the evidence presented at trial. See Zant v.
Stephens, 462 U.S. 862, 872–74 & n.12 (1983) (describing Georgia system).
Arkansas clearly does not. It limits the jury’s discretion to weighing a limited
28

Appendix C

31a

number of possible aggravating factors against mitigation, and then to determining
whether any of the limited aggravating factors present in the case justify death. The
trial court’s instruction was error, and it was not harmless error. Allowing the jury
to count the entire universe of fact from resentencing as aggravation materially
heightened the risk that it would find the scales tipped in favor of death, or that
non-statutory factors would justify a capital sentence.
III. ANDERSON SATISFIES THE STANDARD FOR RECALLING THE MANDATE
Anderson’s claims satisfy the standard this Court has articulated for exercising
its authority to recall the mandate and reopen a case—whether there was a defect
in the appellate process because the Court failed to address a prejudicial error that
is apparent from the record in a death-penalty case and that evades federal review
because it was not presented in state court.
This is obviously a case in which the death penalty has been imposed. The
federal courts dismissed the claims after finding them defaulted for lack of
adequate presentation in state court. Prejudicial error occurred, as established
above. And, importantly, the errors were well-preserved at trial through
Anderson’s repeated objections. He raised the other-crimes victim-impact problem
by pretrial motion, again by objection at trial, and yet again by offering an
instruction. The Solveys’ testimony and the relevant objections all appeared in the
abstract and addendum. See Ab. 530–42 (testimony and objections); Add. 379–
29

Appendix C

32a

409, Add. 480–82 (motions); Ab. 725–26, Add. 727 (proposed instruction). So too
did the long colloquy with the court in which Anderson objected to the
supplemental jury instruction. See Ab. 771–81. Indeed, as discussed in the
background section, appellate counsel even raised the instructional error in her
appellate brief—yet it evaded review by the Court.
In sum, the Court’s failure to correct these errors created a defect in the
appellate process. As a result, the prosecutor obtained a death sentence using
evidence that the jury never should have considered or weighed. The Court should
recall the mandate and order a resentencing that properly limits the evidence the
jury uses in its sentencing calculation.
CONCLUSION
For the reasons stated above, the Court should recall the mandate and vacate
Anderson’s death sentence.
Dated: November 6, 2020

Respectfully submitted,
LISA G. PETERS
FEDERAL PUBLIC DEFENDER
/s/ John C. Williams
JOHN C. WILLIAMS, Bar No. 2013233
Assistant Federal Public Defender
1401 W. Capitol Ave., Ste. 490
Little Rock, AR 72201
(501) 324-6114
john_c_williams@fd.org
Attorney for Justin Anderson
30

Appendix C

33a

CERTIFICATE OF SERVICE
I hereby certify that on this 6th day of November, 2020, I filed the foregoing
Motion to Recall the Mandate with the Clerk of Court via the eFlex electronic
filing system, which shall send notification to counsel for Appellee.
I have also mailed and emailed copies to counsel for the Appellee at the
following address:
Jacob Jones
Assistant Attorney General
323 Center Street, Suite 200
Little Rock, AR 72201
jake.jones@arkansasag.gov

/s/ John C. Williams
JOHN C. WILLIAMS

